Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




WISCONSIN CLAIMED MEDICAID
 REIMBURSEMENT FOR HIGH-
 DOLLAR INPATIENT SERVICES
  THAT WERE UNALLOWABLE



  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                          Gloria L. Jarmon
                                       Deputy Inspector General

                                               June 2013
                                             A-05-11-00037
                    Office of Inspector General
                                     https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov



 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                    EXECUTIVE SUMMARY


 Wisconsin claimed approximately $1.1 million in Federal reimbursement for unallowable
 high-dollar payments that it made to hospitals for inpatient services.


WHY WE DID THIS REVIEW

The Wisconsin Department of Health Services (State agency) uses a prospective payment system
to claim Medicaid reimbursement for inpatient service costs based on the charges that a hospital
submits to the State agency. When a hospital’s charges exceed predetermined charge thresholds,
the State agency makes what is known as an outlier payment. Outlier payments are intended to
protect hospitals against large financial losses associated with high-cost cases. Because of these
outlier payments, extraordinarily high-cost cases generally result in high-dollar Medicaid
payments. Previous Office of Inspector General reviews found a high occurrence of erroneous
Medicaid payments associated with high-dollar inpatient service claims reimbursed by the States.

The objective of this review was to determine the allowability of certain high-dollar Medicaid
payments that the State agency made to hospitals for inpatient services.

BACKGROUND

In Wisconsin, the State agency administers the Medicaid program. Federal reimbursement is
authorized to cover part or all of the cost of services furnished as medical assistance under a
State Medicaid plan (State plan). Improper payments to providers are not allowable for Federal
reimbursement under the State plan. Therefore, Federal reimbursements in cases of improper
payments constitute overpayments and are unallowable.

HOW WE CONDUCTED THIS REVIEW

We selected 386 inpatient claims with payments of $200,000 or more, totaling $138,735,373
($80,906,872 Federal share), for services provided from January 1, 2006, through December 31,
2009, and reviewed the charges related to those payments.

WHAT WE FOUND

The State agency claimed Federal Medicaid reimbursement for high-dollar claims that were
unallowable. Of the 386 high-dollar Medicaid payments that the State agency made to hospitals
for inpatient service claims, 302 were allowable. The remaining 84 payments (22 percent) were
unallowable. The State agency recalculated the payment amounts for the claims that we
determined had erroneous charges, resulting in overpayments totaling $1,879,836 ($1,106,872
Federal share). The overpayments occurred because hospitals reported incorrect charges.
Hospital officials attributed the incorrect charges primarily to data entry errors.




Wisconsin Claimed Unallowable High-Dollar Medicaid Payments (A-05-11-00037)                i
WHAT WE RECOMMEND

We recommend that the State agency:

    •   refund $1,106,872 to the Federal Government and

    •   use the results of this audit in its provider education activities related to data entry
        procedures.

AUDITEE COMMENTS

In comments on our draft report, the State agency said that it agreed with the recommendations
outlined in our draft report. It has implemented procedures to recover the overpayments by
reducing future claim payments to the providers that received overpayments. It will also use the
report results to provide education activities regarding proper data entry to improve claim
accuracy.




Wisconsin Claimed Unallowable High-Dollar Medicaid Payments (A-05-11-00037)                        ii
                                                           TABLE OF CONTENTS


INTRODUCTION ....................................................................................................................1

           Why We Did This Review ...........................................................................................1

           Objective .......................................................................................................................1

           Background ...................................................................................................................1
                 The Medicaid Program: How It Is Administered ............................................1
                 Payments for High-Dollar Medicaid Claims ....................................................1
                 Wisconsin’s Medicaid Program: How It Is Administered ...............................2

           How We Conducted This Review.................................................................................2

FINDING .................................................................................................................................. 3

RECOMMENDATIONS ..........................................................................................................3

AUDITEE COMMENTS……………...………………………………………………….......3

APPENDIXES

           A: Audit Scope and Methodology ............................................................................... 4

           B: Federal and State Requirements for Medicaid Inpatient Services .......................... 6

           C: Auditee Comments…………………………………………...…………………. ..7




Wisconsin Claimed Unallowable High-Dollar Medicaid Payments (A-05-11-00037)                                                             iii
                                              INTRODUCTION

WHY WE DID THIS REVIEW

The Wisconsin Department of Health Services (State agency) uses a prospective payment system
to claim Medicaid reimbursement for inpatient service costs based on the charges that a hospital
submits to the State agency. When a hospital’s charges exceed predetermined charge thresholds,
the State agency makes what is known as an outlier payment. 1 Outlier payments are intended to
protect hospitals against large financial losses associated with high-cost cases. Because of these
outlier payments, extraordinarily high-cost cases generally result in high-dollar Medicaid
payments. Previous Office of Inspector General reviews found a high occurrence of erroneous
Medicaid payments associated with high-dollar inpatient service claims reimbursed by the
States. 2

OBJECTIVE

The objective of this review was to determine the allowability of certain high-dollar Medicaid
payments that the State agency made to hospitals for inpatient services.

BACKGROUND

The Medicaid Program: How It Is Administered

The Medicaid program provides medical assistance to low-income individuals and individuals
with disabilities. The Federal and State Governments jointly fund and administer the Medicaid
program. At the Federal level, the Centers for Medicare & Medicaid Services (CMS)
administers the program. Each State administers its Medicaid program in accordance with a
CMS-approved State plan (State plan). Although the State has considerable flexibility in
designing and operating its Medicaid program, it must comply with Federal requirements. The
State agency is responsible for administering Wisconsin’s Medicaid program.

Payments for High-Dollar Medicaid Claims

Attachment 4.19-A of the State plan describes the prospective payment system for inpatient
hospital services. Under the prospective payment system, the State agency pays hospital costs at

1
 In Wisconsin, there are two types of outlier payments: (1) cost outlier payments and (2) length-of-stay outlier
payments for certain hospital admissions for children. For this review, we use the term “outlier payment” to refer to
both types.

2
  U.S. Department of Health and Human Services, Office of Inspector General, report number A-05-09-00048
entitled Review of Medicaid High-Dollar Payments for Inpatient Services in Illinois From January 1, 2006, Through
September 30, 2007 – Hospitals With Fewer Than Five High-Dollar Payments, issued on May 21, 2010, and
report number A-05-09-00049 entitled Review of Medicaid High-Dollar Payments for Inpatient Services in Illinois
From January 1, 2006, Through September 30, 2007 – Hospitals With Five or More High-Dollar Payments, issued
on December 20, 2010.


Wisconsin Claimed Unallowable High-Dollar Medicaid Payments (A-05-11-00037)                                  1
predetermined rates for patient discharges. The rates vary according to the diagnosis-related
group (DRG) to which a beneficiary’s stay is assigned. The DRG payment is, with certain
exceptions, payment in full to the hospital for all inpatient costs associated with the beneficiary’s
stay. One of these exceptions is an outlier payment.

Outlier payments are made to hospitals for covered inpatient services furnished to a Medicaid
beneficiary if the hospital’s charges, as adjusted by the hospital-specific cost-to-charge ratio,
exceed the DRG payment by a predetermined threshold as defined by the State plan. Thus, for
high-dollar Medicaid claims, the State agency pays the DRG payment plus an outlier payment
when necessary.

Wisconsin’s Medicaid Program: How It Is Administered

The State agency’s Medicaid program provides certain medical services, including inpatient
hospital services. Wisconsin pays for inpatient services using a prospective payment system that
includes an outlier payment for high-dollar claims. The State agency processes hospital inpatient
service claims through the Medicaid Management Information System. 3

HOW WE CONDUCTED THIS REVIEW

Our review covered the State agency’s claims for Medicaid reimbursement during calendar years
(CYs) 2006 through 2009. During this period, the State agency claimed $1,694,697,337 for
inpatient service claims. We reviewed all 386 Medicaid inpatient service claims with payments
of $200,000 4 or more, which totaled $138,735,373 ($80,906,872 Federal share). We tested the
charges associated with the 386 claims and presented the results of our review to the State
agency. The State agency recalculated the payment amounts for the claims that we determined
had erroneous charges.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains the details of our audit scope and methodology. Appendix B contains the
Federal and State requirements for Medicaid inpatient services.




3
 The Medicaid Management Information System is a mechanized claims processing and information retrieval
system that States are required to use to record Title XIX program and administrative costs, report services to
beneficiaries, and report selected data to CMS.

4
    Claims with payment amounts of $200,000 or more were considered high-dollar claims for this review.




Wisconsin Claimed Unallowable High-Dollar Medicaid Payments (A-05-11-00037)                                2
                                              FINDING

The State agency claimed Federal Medicaid reimbursement for high-dollar claims that were
unallowable. Of the 386 high-dollar Medicaid payments that the State agency made during
CYs 2006 through 2009 to hospitals for inpatient services, 302 were allowable. The remaining
84 payments (22 percent) were unallowable. The State agency recalculated the payment
amounts for the claims that we determined had erroneous charges, resulting in overpayments
totaling $1,879,836 ($1,106,872 Federal share). The overpayments occurred because hospitals
reported incorrect charges. Hospital officials attributed the incorrect charges primarily to data
entry errors. For example, one inpatient hospital claim contained an overcharge of $28,848
because of a pharmacy charge error that was entered manually for a medication that the patient
did not receive. The erroneous charges led to a $15,180 overpayment ($9,014 Federal share).

                                     RECOMMENDATIONS

We recommend that the State agency:

    •   refund $1,106,872 to the Federal Government and

    •   use the results of this audit in its provider education activities related to data entry
        procedures.

                                     AUDITEE COMMENTS

In comments on our draft report, the State agency said that it agreed with the recommendations
outlined in our draft report. It has implemented procedures to recover the overpayments by
reducing future claim payments to the providers that received overpayments. It will also use the
report results to provide education activities regarding proper data entry to improve claim
accuracy.

The State agency’s comments are included in their entirety as Appendix C.




Wisconsin Claimed Unallowable High-Dollar Medicaid Payments (A-05-11-00037)                   3
                    APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

We selected and reviewed 386 inpatient claims with payments of $200,000 or more, totaling
$138,735,373 ($80,906,872 Federal share), for services provided from January 1, 2006, through
December 31, 2009.

We limited our review of the State agency’s internal controls to those that related to our audit
objective. This review allowed us to establish a reasonable assurance of the authenticity and
accuracy of the data obtained from CMS’s Medicaid Statistical Information System, but we did
not assess the completeness of the data. 5

We conducted fieldwork at the State agency’s offices in Madison, Wisconsin, and contacted the
24 hospitals in Wisconsin that received the selected Medicaid payments.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal and State laws, regulations, guidance, and the
        CMS-approved State plan;

    •   interviewed State agency officials to gain an understanding of how the State agency
        processed and adjusted claims for inpatient services;

    •   requested all high-dollar claim data for inpatient hospital services provided during the
        audit period from Wisconsin’s Medicaid Statistical Information System file (386 claims
        from 24 hospitals);

    •   contacted the State agency to determine whether the 386 high-dollar claims had been
        canceled or superseded by revised claims, whether payments remained outstanding at the
        time of our fieldwork, and whether the State agency received Federal reimbursements for
        the claims;

    •   contacted the 24 hospitals that received payments for the 386 high-dollar claims and
        requested assessments as to whether the charges originally reported on each of the claims
        were correct and, if not, why the claims were incorrect;




5
 The Balanced Budget Act of 1997 (P.L. No. 105-33) requires that all State Medicaid programs submit claims and
eligibility data to CMS. CMS’s Medicaid Statistical Information System is the repository for this data.




Wisconsin Claimed Unallowable High-Dollar Medicaid Payments (A-05-11-00037)                             4
    •   reviewed supporting documentation received from the hospitals to verify the hospitals’
        assessment of the selected claims;

    •   summarized and submitted to the State agency information regarding our review of
        submitted charges and related correspondence that we received from the hospitals;

    •   requested that the State agency recalculate the payment amounts for the claims we
        determined had erroneous charges; and

    •   provided the results of our review to State agency officials on September 25, 2012.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Wisconsin Claimed Unallowable High-Dollar Medicaid Payments (A-05-11-00037)              5
                 APPENDIX B: FEDERAL AND STATE REQUIREMENTS FOR
                           MEDICAID INPATIENT SERVICES

FEDERAL REQUIREMENTS

Improper payments to providers are not allowable for Federal reimbursement under the State
plan within the meaning of §§ 1903(a)(1) and 1905(a) of the Social Security Act (the Act).
Federal reimbursement is authorized to State Medicaid agencies for expenditures that
constitute payment for part or all of the cost of services furnished as medical assistance under
the State plan. Therefore, Federal funding in cases of improper payments constitutes
overpayments that must be adjusted under § 1903(d)(2)(A) of the Act.

Federal regulations (42 CFR § 433.312(a)(2)) require a State to refund the Federal share of
unallowable overpayments made to Medicaid providers.

STATE REQUIREMENTS

Attachment 4.19-A, § 1000, provides an overview of reimbursement to hospitals for Medicaid
inpatient services. A hospital may be paid a DRG payment amount plus an additional length-
of-stay6 or cost outlier payment. Attachment 4.19-A, § 5200, of the State plan provides for
outlier payments to hospitals, in addition to DRG payments, for cases incurring extremely high
costs. Pursuant to Attachment 4.19-A, § 5221, of the State plan, outlier payments are made to
hospitals for covered inpatient services furnished to a Medicaid beneficiary if the hospital’s
charges, as adjusted by the hospital-specific cost-to-charge ratio, exceed the DRG payment by
the amount of the trimpoint applicable to the hospital. The applicable trimpoints are defined
by the type of hospital and number of beds within the hospital as follows:

                          Trimpoint Amount 7 by Type and Bed Size of Hospital

Type of Hospital / Bed Size                           Less Than 100 Beds                 100 Beds or Greater
General medical and surgical hospital                       $5,235                             $31,410
Critical access hospital 8                                   $300                           not applicable




6
 A length-of-stay outlier payment is available upon a hospital’s request for children under 6 years of age in
disproportionate share hospitals and for children under age 1 in all hospitals.

7
 The trimpoint amount changes by the current rate year. The amounts listed in the table are for State fiscal year
2010.

8
    Critical access hospitals operate primarily in rural areas and are limited to 25 beds.



Wisconsin Claimed Unallowable High-Dollar Medicaid Payments (A-05-11-00037)                                     6
                                 APPENDIX C: AUDITEE COMMENTS




                                  State of Wi sconsin 

                                  Department of H ealth Services 

                                  Scott Walker, Governor 

                                  Kitty Rhoad es, Secretary 





            May 3, 2013



            TO: 	           Ms, Sheri Fulcher 

                            Regional Inspector General for Audit Services, Region V 


            FROM: 	         Kitty Rhoades, Secretary
                            Department of Health Services
                                                           1/J1It:~
            SUBJECT: 	      Wisconsin Claimed Medicaid Reimbursement for High-Dollar Inpatient Services Audit
                            tinding (A-0 5-11-00037)


            Department staff has reviewed the audit report titled Wisconsin Claimed Medicaid Reimbursement for
            High-Dollar Inpatient Services (A-05-11-00037). This memo is the DHS response to the
            recoiiUllendations made in the report.

            BACKGROUND

            DHS claims Federal Medicaid reimbursement for high-dollar inpatient services. For the audit period
            January 1, 2006, through December 31,2009, HHS/OIG selected and reviewed all 386 Medicaid
            inpatient service claims with payments of$200,000 or more that totaled $ 138,735,373 ($80,906,872
           Federalshare).

           Of the 386 high-dollar Medicaid payments that DHS made to hospitals for inpatient service claims,
           302 were allowable. The remaining 84 (22 percent) were unallowable. DHS recalculated the
           payment amounts for the claims that were determined to have erroneous charges resulting in
           overpayments totaling $1,879,836 ($!,106,872 Federal share). The overpayments occurred because
           hospitals reported incorrect charges. Hospital Officials attributed the incorrect charges primarily to data
           entry errors.

           0 R ecommeudation:

           HRS!OIG: We recommend that the State agency:

                • rejimd $1,106,871 to the Federal Government
                • use the results ofthis audit in its provider education activities related to data ently procedures.




               1 West Wilson Street • Post Office Box 7850 • Madison, \'\II 53707-7850 • Telephone 608-266-9622 •
                                                       dhs. wisconsin.gov-
                             Protecting tmd promoting the lleultll ami safety ofthe people ofWisconsi11




Wisconsin Claimed Unallowable High-Dollar Medicaid Payments (A-05-11-00037)                                              7
            WIDHS Resoonse: The Department ofHealth Services CDHS) agrc::es with the recommendation

                • 	 Procedures were implemented to recover the overpavments by reducing the providers future claim
                    payments, which in effect returned the recouped money to the Federal Government.
                • 	 ~ will use the results of this audit in its provider educatiO\J activities to irnlliQ.Ve claim accuracy
                    related to data entrv.




            Kitty Rhoades, Secretary


            cc: 	 Cheryl Johnson, DES -Deputy Adminisb·ator
                  Curtis Cullllingham, DHCAA- Director- Bureau of Fiscal Management
                  Alan White, .DHS -· Office of Inspector General
                  Lori Tbomton, DHS- Office of Inspector General
                  Amy McDowell, OES- Director - Bureau of Fiscal Services
                  Dale Crapp, DES - BPS




Wisconsin Claimed Unallowable High-Dollar Medicaid Payments (A-05-11-00037)                                                   8
